WAIVER

Supreme Court, U.S.
FILED

NOV 0 4 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

KELLY GEORGENE ROUTTEN

aov.

JOHN TYLER ROUTTEN
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

411 Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a' member of the Bar of this Court. Should a response be requested, the response
•
will be filed by a Bar Ai
. • .ber.
Signature

ell 1

Or

Date.
(Type or print) Name

Jill Schnabel Jackson
0 Mr. 0 Ms. 0 Mrs. Ei Miss

Firm

JACKSON FAMILY LAW

Address

3801 Computer Dr #204

City & State
Phone

Raleigh, NC

919.576.2450

Zip
Email

27609

jill@jacksonfamilylaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED
. RECEIVED

CC: R. Daniel Gibson, 510 W. Williams St, Apex, NC 27502, dan@stamlawfi

".c1i0V 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

